                                                                O FFICE OF A UDIT S ERVICES , R EGION V
                                                                    233 N ORTH M ICHIGAN , S UITE 1360
                                                                                   C HICAGO , IL 60601

July 17, 2012


TO:	            Kay Willmoth
                Regional Program Manager, Office of Head Start
                Administration for Children and Families


FROM:           	/Sheri L. Fulcher/
                Regional Inspector General for Audit Services


SUBJECT:	 Lake County Family YMCA Claimed Unallowable Early Head Start Costs
          (A-05-11-00055)


The attached final report provides the results of our review of Lake County Family YMCA
Claimed Unallowable Early Head Start Costs. This review was requested by the Administration
for Children and Families.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. We look forward to receiving your final management decision
within 6 months. Please refer to report number A-05-11-00055 in all correspondence.


Attachment
                                                              O FFICE OF A UDIT S ERVICES , R EGION V
                                                                  233 N ORTH M ICHIGAN , S UITE 1360
                                                                                 C HICAGO , IL 60601




July 17, 2012

Report Number: A-05-11-00055

Ms. Lynda Chott
President and CEO
Lake County Family YMCA
2000 Western Avenue
Waukegan, IL 60087

Dear Ms. Chott:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Lake County Family YMCA Claimed Unallowable Early
Head Start Costs. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.
Page 2 – Ms. Lynda Chott



If you have any questions or comments about this report, please do not hesitate to call me, or
contact Mike Barton, Audit Manager, at (614) 469-2543 or through email at
Mike.Barton@oig.hhs.gov. Please refer to report number A-05-11-00055 in all correspondence.

                                           Sincerely,




                                           /Sheri L. Fulcher/
                                           Regional Inspector General
                                             for Audit Services


Enclosure


Direct Reply to HHS Action Official:

Kay Willmoth
Regional Program Manager
Office of Head Start
Administration for Children and Families
U.S. Department of Health and Human Services
Region V
233 North Michigan Avenue, Suite 400
Chicago, Illinois 60601
Department of Health and Human Services
           OFFICE OF 

      INSPECTOR GENERAL 





  LAKE COUNTY FAMILY YMCA

    CLAIMED UNALLOWABLE 

   EARLY HEAD START COSTS





                       Daniel R. Levinson

                        Inspector General 


                           July 2012 

                         A-05-11-00055 

                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                  EXECUTIVE SUMMARY 


BACKGROUND 


Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. In 1994, the Head Start program was expanded to establish Early
Head Start, which serves children from birth to 3 years of age. Early Head Start promotes
healthy prenatal outcomes, enhances the development of infants and toddlers, and promotes
healthy family functioning.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009 provided an additional $1.1 billion to expand the Early Head Start program
during FYs 2009 and 2010. These funds were intended for activities such as expanding
enrollment, funding cost-of-living wage increases for grantees, upgrading centers and
classrooms, and bolstering training and technical assistance.

Lake County Family YMCA (Lake County) is a 114-year-old, non-profit organization that
established an Early Head Start program in 2002 to assist disadvantaged families in the
community. Lake County’s Early Head Start program is funded primarily through Federal
grants. During our review period, Lake County claimed Early Head Start program costs totaling
$662,277 for regular operations from August 1, 2009, through July 31, 2010, and Recovery Act
costs of $246,504 for expansion from December 1, 2009, through September 29, 2010, and
$66,650 for cost-of-living adjustment and quality improvement from July 1, 2009, through
September 30, 2010. Lake County also receives funds to operate the program from the Illinois
Department of Human Services and other sources.

We performed this review in response to a request from ACF.

OBJECTIVE

Our objectives were to determine whether Lake County’s expenditures were allowable under the
terms of the grant and Federal regulations, and to determine whether Lake County maintained
adequate financial records to support Early Head Start and Recovery Act program expenditures
reported on its final Financial Status Reports (SF-269), in accordance with Federal requirements.

SUMMARY OF FINDINGS

Lake County claimed unallowable Early Head Start grant expenditures totaling $975,431
because it did not adequately document expenses. Lake County did not maintain adequate
financial records to support Early Head Start and Recovery Act program expenditures on its final
Financial Status Reports (SF-269), in accordance with Federal requirements.



                                                i
Lake County did not ensure that financial reporting and payroll distribution complied with
Federal requirements. Specifically, Lake County could not adequately identify the funding
source and application of funds or its Early Head Start grant expenditures. Therefore, the entire
$975,431 was unallowable for Federal reimbursement because the expenditures were not
adequately documented, and we could not verify that Early Head Start grant funds were used for
allowable expenditures. These unallowable claims occurred because Lake County did not:

   	 set up its accounting system according to 45 CFR § 74.21(b)(1) and (2), which requires
      systems to provide accurate, current, and complete disclosure of financial results and
      records that identify the source and application of funds for HHS-sponsored activities,
      and account for grant funds separately from all other funds;

   	 adequately support salaries and wages using personnel activity reports; and

   	 reconcile expenditures with budgeted costs.

Because of these deficiencies, Federal program funds may be at risk of not being properly
accounted for or expended in accordance with Federal requirements.

RECOMMENDATIONS

We recommend that OHS:

   	 require Lake County to refund $975,431 to the Federal Government for inadequately
      supported costs, or work with Lake County to resolve the lack of adequate records that
      identify the source and application of $975,431 in claimed Federal program funds;

   	 impose special award conditions on Lake County so that it takes corrective actions to
      ensure that:

           o	 financial records adequately identify the source and application of Federal
              program funds; and

           o	 payroll distribution policies, procedures, and processes reflect actual work
              performed.

LAKE COUNTY FAMILY YMCA’S COMMENTS

In written comments on our draft report, Lake County concurred with our findings and described
actions it has taken or plans to take to address them. However, Lake County stated that it “does
not wish to or intend to forfeit” the $975,431. Lake County’s comments are included in their
entirety in Appendix A.




                                                ii
ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF generally concurred with the first recommendation
and responded that the second and third recommendations were no longer relevant as Lake
County is scheduled to relinquish the Early Head Start grant effective July 31, 2012. With
regard to the first recommendation, ACF did not support the refunding of $975,431, but will
work with Lake County to resolve the lack of adequate records that identify the source and
application of the Federal funds. ACF stated that “disallowance of the total grant is too severe a
remedy and does not consider the benefits the program afforded the community. … The issue
identified in the audit is associated more with the proper allocation and documentation of costs
among the funding sources used to support EHS services as opposed to claiming unallowable
activities.” With regard to the second and third recommendation, ACF will continue to work
with Lake County to ensure financial records adequately identify the source and application of
Federal program funds; and payroll distribution policies, procedures, and processes reflect actual
work performed. In addition, ACF will instruct the grantee to direct its independent auditor to
review each of the audit findings and recommendations in the OIG report as part of the A-133
single audit for the period ending August 31, 2012. ACF’s comments are included in their
entirety as Appendix B.




                                                iii
                                                      TABLE OF CONTENTS 




INTRODUCTION .......................................................................................................... 1 


     BACKGROUND .............................................................................. .......................... 1 

       Federal Early Head Start Program .............. .. .......... .............................................. 1 

       Lake County Family YMCA ................................................................................ 1 

       Federal Requirements for Early Head Start Grantees .. ......................................... 1 

       Special Award Conditions ......................................... ...........................................2 


     OBJECTIVES, SCOPE, AND METHODOLOGy .................... ......... ....................... 2 

       Objectives .. .............................. ........... .......... ... .. ....... ...................... ....... ............... 2 

       Scope................. .. ........................................... ........................ ............................... 2 

       Methodology.............. .. ................................ ..................................... .................... 3 


FINDINGS AND RECOMMENDATIONS ................................................................. 3 


    UNALLOWABLE COSTS .. ...................................................................................... 4 

      Federal Requirements ..... .... .................. ........................ ~ ............. .......................... 4 

      Final Financial Status Reports Not Supported ................................................ ...... 5 

      Inadequate Payroll Distribution Process ............................................................... 6 


    COMPARISON OF EXPENDITURES TO BUDGETED COSTS ........................... 6 

      Federal Requirements .......... ....... .................................................................... ...... 6 

      Lack of Adequate Financial Records .................................................................... 6 


    RECOMMENDATIONS ........................................ .................................................... 7 


    LAKE COUNTY FAMILY YMCA'S COMMENTS ............ ...... ......................... ... .7 


    ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS ............... 7 


APPENDIXES

          A: LAKE COUNTY FAMILY YMCA'S COMMENTS

          B: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS




                                                                          lV
                                       INTRODUCTION 


BACKGROUND

Federal Early Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. In 1994, the Head Start program was expanded to establish Early
Head Start, which serves children from birth to 3 years of age. The Early Head Start program
provides grants to public and private non-profit and for-profit agencies to provide a wide range
of services to economically disadvantaged children and families, including promoting healthy
prenatal outcomes, enhancing the development of infants and toddlers, and promoting healthy
family functioning.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
In fiscal year (FY) 2010, Congress appropriated $7.2 billion to fund Head Start’s regular
operations.

The American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act), enacted
on February 17, 2009 provided an additional $1.1 billion to expand the Early Head Start program
during FYs 2009 and 2010. These funds were intended for activities such as expanding
enrollment, funding cost-of-living wage increases for grantees, upgrading centers and
classrooms, and bolstering training and technical assistance.

Lake County Family YMCA

Lake County Family YMCA (Lake County) is a 114-year-old non-profit organization that
established an Early Head Start program in 2002 to assist disadvantaged families in the
community. Lake County currently provides services to 102 infants, toddlers, and pregnant
women.

Lake County’s Early Head Start program is funded primarily through Federal grants. During our
review period, Lake County claimed Early Head Start program costs totaling $662,277 for
regular operations from August 1, 2009, through July 31, 2010, and Recovery Act costs of
$246,504 for expansion from December 1, 2009, through September 29, 2010, and $66,650 for
cost-of-living adjustment (COLA) and quality improvement from July 1, 2009, through
September 30, 2010. Lake County also receives funds to operate the program from the Illinois
Department of Human Services and other sources.

Federal Requirements for Early Head Start Grantees

The Head Start Performance Standards (45 CFR §§ 1301—1311) establish regulations applicable
to program operation, administration and grants management for all grants awarded under the
Head Start Act. The allowability of costs incurred by non-profit organizations is determined in



                                                1

accordance with the provisions of 2 CFR pt. 230 (Office of Management and Budget (OMB)
Circular A-122), Cost Principles for Non-Profit Organizations.

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide for, among other things:

        	 Accurate, current, and complete disclosure of the financial results of each HHS-
           sponsored project or program in accordance with the reporting requirements set forth
           in 74.52.…

        	 Records that identify adequately the source and application of funds for HHS-
           sponsored activities.…

        	 Comparison of outlays with budgeted amounts for each award.…[and]

        	 Written procedures for determining the reasonableness, allocability, and allowability
           of costs in accordance with the provisions of the applicable Federal cost principles
           and the terms and conditions of the award.

Pursuant to 2 CFR pt. 230, Appendix A, § A.2, “[t]o be allowable under an award, costs must …
be adequately documented.” Additionally, 230, Appendix B, § 8.m(1) states, the distribution of
salaries and wages must be supported by personnel activity reports, unless the cognizant agency
(the federal agency responsible for negotiating and approving indirect cost rates) has approved a
substitute system in writing.

Special Award Conditions

Pursuant to 45 CFR § 74.14, ACF may impose additional requirements if a grant recipient has a
history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether Lake County’s expenditures were allowable under the
terms of the grant and Federal regulations, and to determine whether Lake County maintained
adequate financial records to support Early Head Start and Recovery Act program expenditures
reported on its final Financial Status Reports (SF-269), in accordance with Federal requirements.

Scope

We performed this limited scope review in response to a request from ACF. Therefore, we did
not perform an overall assessment of Lake County’s internal control structure. Rather, we
reviewed only the internal controls that pertained to our objective. Our review period was July 1,


                                                2

2009, through September 30, 2010. We reviewed $975,431 or 100 percent of costs claimed by
Lake County during the review period.

We performed our field work at Lake County in Waukegan, Illinois during March and April
2011.

Methodology

To accomplish our objective, we:

      reviewed applicable Federal laws and regulations pertaining to Early Head Start
       operations and Recovery Act projects, and the Federal Head Start program guidance
       related to reporting expenditures for regular operations;

      reviewed OHS program and policy announcements for the Early Head Start program;

      reviewed Lake County’s by-laws, Board of Director meeting minutes, and organizational
       chart;

      reviewed Lake County’s policies and procedures;

      reviewed Lake County’s audited and unaudited financial statements and supporting
       documentation; 


      held discussions with Lake County officials related to policies, procedures, and 

       methodology for claiming Early Head Start program expenditures; and 


      obtained and reviewed final annual Financial Status Reports (SF-269) for:

              August 1, 2009, through July 31, 2010 for Early Head Start operations;

              December 1, 2009, through September 29, 2010 for Recovery Act expansion; and

              July 1, 2009, through September 30, 2010 for Recovery Act COLA and quality
               improvement.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

Lake County claimed unallowable Early Head Start grant expenditures totaling $975,431
because it did not adequately document expenses. Lake County did not maintain adequate


                                                3

financial records to support Early Head Start and Recovery Act program expenditures on its final
Financial Status Reports (SF-269), in accordance with Federal requirements.

Lake County did not ensure that financial reporting and payroll distribution complied with
Federal requirements. Specifically, Lake County could not adequately identify the funding
source and application of funds or its Early Head Start grant expenditures. Therefore, the entire
$975,431 was unallowable for Federal reimbursement because the expenditures were not
adequately documented, and we could not verify that Early Head Start grant funds were used for
allowable expenditures. These unallowable claims occurred because Lake County did not:

   	 set up its accounting system according to 45 CFR § 74.21(b)(1) and (2), which requires
      systems to provide accurate, current, and complete disclosure of financial results and
      records that identify the source and application of funds for HHS-sponsored activities,
      and account for grant funds separately from all other funds;

   	 adequately support salaries and wages using personnel activity reports; and

   	 reconcile expenditures with budgeted costs.

Because of these deficiencies, Federal program funds may be at risk of not being properly
accounted for or expended in accordance with Federal requirements.

UNALLOWABLE COSTS

Federal Requirements

Pursuant to 2 CFR pt. 230 (OMB Circular A-122), Appendix A, § A.2, “[t]o be allowable under
an award, costs must … [b]e adequately documented.”

The Standards for Financial Management Systems found at 45 CFR § 74.21, establish
regulations for grantees to maintain financial management systems. Grantees’ financial
management systems must provide for accurate, current, and complete disclosure of the financial
results of each HHS-sponsored project or program (45 CFR § 74.21(b)(1)); must provide records
that identify adequately the source and application of funds for HHS-sponsored activities
(45 CFR § 74.21(b)(2)); must ensure that accounting records are supported by source
documentation (45 CFR § 74.21(b)(7)); and must provide effective control over and
accountability of all funds, property, and other assets so that recipients adequately safeguard all
such assets and assure they are used solely for authorized purposes (45 CFR § 74.21(b)(3)).
Grantees also must have written procedures for determining the reasonableness, allocability, and
allowability of costs in accordance with the provisions of the applicable Federal cost principles
and the terms and conditions of the award (45 CFR § 74.21(b)(6)).

According to 2 CFR pt. 230, Appendix B, § 8.m, the distribution of salaries and wages must be
supported by personnel activity reports, unless a substitute system is approved in writing by the
cognizant agency (the federal agency responsible for negotiating and approving the indirect cost




                                                 4

rate). The activity reports maintained by nonprofit organizations must meet the following
standards:

   	 reflect an after-the-fact distribution of the actual activity of each employee,

   	 account for the total activity for which each employee is compensated,

   	 be signed by the employee or by a responsible supervisory official having firsthand
      knowledge of the activities performed, and

   	 be prepared at least monthly and coincide with one or more pay periods.

Final Financial Status Reports Not Supported

Lake County could not adequately identify the funding source and application of funds or its
Early Head Start grant expenditures. Therefore, the grant expenditures were unallowable for
Federal reimbursement because they were not adequately documented, and we could not verify
that Early Head Start grant funds were used for allowable expenditures. These unallowable
claims occurred because Lake County did not set up its accounting system according to 45 CFR
§ 74.21(b), which requires systems to provide accurate, current, and complete disclosure of
financial results and records that identify the source and application of funds for HHS-sponsored
activities, and account for grant funds separately from all other funds.

Lake County’s Early Head Start final Financial Status Reports (SF-269) were not supported by
accounting records and therefore do not reflect a current, accurate, and complete reporting of
Federal expenditures. Lake County’s final SF-269s for 3 Federal grants (i.e., regular operations,
Recovery Act expansion, and Recovery Act COLA and quality assurance), totaled $975,431 in
Federal expenditures. Lake County’s accounting records identified $1,479,858 in total Early
Head Start program expenditures. The program expenditures were funded by HHS, the Illinois
Department of Human Services (IDHS), and other revenue sources in the amount of $1,606,811,
as shown in Figure 1.




                                                 5

                     Figure 1: Lake County’s Early Head Start Funding


                  HHS                                               IDHS
                 $975,431                                          $530,756
                   61%                                               33%


                                                                                HHS
                                                                                IDHS
                                                                                Other

                                                                      Other
                                                                     $100,624
                                                                       6%



Inadequate Payroll Distribution Process

Even if Lake County’s accounting system separately accounted for funds by source, payroll costs
totaling $668,606 would have been unallowable because Lake County’s payroll distribution
process did not provide an after-the-fact certification of actual activity performed by salaried
employees for the period from July 2009 through September 2010. Lake County claimed
$668,606 in salaries and wages that were not supported by personnel activity reports.

Lake County did not have procedures to ensure that its payroll distribution process (1) resulted in
an allocation that reflected actual work performed by staff at least on a monthly basis and
(2) identified and segregated non-Federal activity. As a result, we had no assurance that charges
for salaries and wages of $668,606 were in support of the Federally funded Early Head Start
grants.

COMPARISON OF EXPENDITURES TO BUDGETED COSTS

Federal Requirements

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide for a comparison of outlays with budgeted amounts for each award.

Lack of Adequate Financial Records

Lake County did not ensure that expenditures reconciled to approved budgeted costs. The
accounting records quantified all program expenditures from August 1, 2009 through July 31,
2010, but did not segregate expenditures between Federal and non-Federal funding sources.
Therefore, Lake County was unable to compare Federal budgeted costs to actual Federal
expenditures.



                                                6

RECOMMENDATIONS

We recommend that OHS:

   	 require Lake County to refund $975,431 to the Federal Government for inadequately
      supported costs, or work with Lake County to resolve the lack of adequate records that
      identify the source and application of $975,431 in claimed Federal program funds;

   	 impose special award conditions on Lake County so that it takes corrective actions to
      ensure that:

           o	 financial records adequately identify the source and application of Federal
              program funds; and

           o	 payroll distribution policies, procedures, and processes reflect actual work
              performed.

LAKE COUNTY FAMILY YMCA’S COMMENTS

In written comments on our draft report, Lake County concurred with our findings and described
actions it has taken or plans to take to address them. However, Lake County stated that it “does
not wish to or intend to forfeit” the $975,431. Lake County’s comments are included in their
entirety in Appendix A.

ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS

In written comments on our draft report, ACF generally concurred with the first recommendation
and responded that the second and third recommendations were no longer relevant as Lake
County is scheduled to relinquish the Early Head Start grant effective July 31, 2012. With
regard to the first recommendation, ACF did not support the refunding of $975,431, but will
work with Lake County to resolve the lack of adequate records that identify the source and
application of the Federal funds. ACF stated that “disallowance of the total grant is too severe a
remedy and does not consider the benefits the program afforded the community. … The issue
identified in the audit is associated more with the proper allocation and documentation of costs
among the funding sources used to support EHS services as opposed to claiming unallowable
activities.” With regard to the second and third recommendation, ACF will continue to work
with Lake County to ensure financial records adequately identify the source and application of
Federal program funds; and payroll distribution policies, procedures, and processes reflect actual
work performed. In addition, ACF will instruct the grantee to direct its independent auditor to
review each of the audit findings and recommendations in the OIG report as part of the A-133
single audit for the period ending August 31, 2012. ACF’s comments are included in their
entirety as Appendix B.




                                                7

APPENDIXES 

                                                                                                      Page 1 of 4


           APPENDIX A: LAKE COUNTY FAMILY YMCA'S COMMENTS 





         AprH1 8,2 012




         Report Number A-05-11-00055 - April 2012

         Ms. Sheri L Fulcher
         Regional Inspector General
         For Audit Services
         Office of Audi t Services, Regi on V
         233 North Michigan Avenue
         Suite 1360
         Chicago, IL 6060 1

         Dear Ms. Fulcher

         Attached you will find the Lake County Family YMCA response to the Office of
         Inspector General (OIG) draft report entitled lake County Family YMCA
         Claimed Unallowable Early Head Start Costs.

         If you have any questions or comments about this report, please cal! me at
         847-36 1-6797 or throu gh email at =;.;..,:;;..:~~~====~..';.;.;~.

         Sincerely,



         lynda Chott
         CEO
         lake County Family YMCA



tAn (DLiN1Y    fM~HY   YMCA
Centra l lake YMCA                 North@rn lake YMCA               brlyHu tlSurt
                                   2000 vJe'5tern AVf:hue           t SOO Sunset... Suite   e
                                              IIImni5 6(}iJIl7                  fH/ bOj·s: 60087
                                              S622 f 847 lin 2386               2196 f 847 33& 3084
                                                                                       Page 2 of 4




Lake County Family YMCA Response to: Office of Inspector General (O/G),
draft report entitled "Lake County Family YMCA Claimed Unallowable Early
                             Head Start Costs"

                  Report number: A-05-11-00055 • April 2012



Lake County did not maintain adequate financial records to support Early
Head Start and recovery Act program expenditures on its final Financial
Status Reports (SF-269j, in accordance with Federal requirements. The
grantee's financial management system did not adequately segregate
expenditures by funding source. As a result, the grantee's SF 269 reports
for regular operations, Recovery Act expansion and recovery Act COLA
and quality assurance grants may not reflect a current, accurate, and
complete reporting of Federal Expenditures.                     .

Recommendation:

OHS require Lake County to refund $975,431 to the Federal government for
inadequatefy supported costs, or work with Lake County to resolve the lack of
adequate records that identify the source and application of $975,431 in claimed
Federal program funds.

Response: 

The Lake County Family YMCA concurs with the Office of Inspector General 

(OIG) finding, 


In an effort to increase the efficiency and effectiveness of the YMCA, 

reorganization was put into place that called for a downsizing, which included the 

business office. The prior CFO was on board since the inception of our Ear!y 

Head Start program in 2001. There was not adequate succession planning for 

such a vital role. Much of the knowledge concerning fiscal administration of the 

grant was lost when the CFO left. The Lake County Family YMCA is committed 

to providing the needed quality services to the children and families In our 

community. In fact, the grantee has recently been approved for additional funds 

to enhance the home base services to the famiiies in the Waukegan community. 


Lake County Family YMCA has agreed to work with OHS to resolve the lack of 

adequate recordkeeping and does not wish to or intend to forte.it the $975,431, 

We are currently working with OHS and ACF to receive additional on-going 

training and technical assistance in order to establish and help maintain a 

financial management system that adequately identifies the source and 

application of funds for HHS sponsored activities. 

                                                                                    Page 3 of 4




The Lake County Family YMCA has also received training and technical
assistance dollars ($12 ,1 80) in order to enhance the fiscal knolt'lledge and
responsibility of program as well as fiscal staff.

       Trainings '.vil! include:

       1, Introduction to Fiscal Management, Advanced Fiscal
       Management and an Annual Financial Manager's Conference.

       2, On~Site Training to establish fiscal tracking system that best fits the
       needs of the YMCA and EHS program,

       3, Training on Federal Regulation requirements for 45 CFR, Cost
       Principles, Head Start Performance Standards, and the Head Start Act

   The foliowing first steps are completed:
      • 	 Hired an interim fisca! consufting firm to assist with development and
          implementation of an effective internal control system 

      .. Hired a new Director of Finance 

      • 	 Worked directly with ACF who is providing an on-site fiscal consultant
          to identify appropriate cost allocation among program options and
          grants, recommendation of fiscal staff structure and fiscal reporting
          requirements through off-site and on-site TA assistance,
  The following step is in progress:
      • 	 Establish internal controls and a financial reporting system to track
          federal budgeted costs to actual federal expenditures,




The grantee did not ensure that expenditures reconciled to approved
budgeted costs. The accounting records quantified all program
expenditures for August 1,2009 through July 31,2010, but did not
segregate expenditures between Federal and non-Federal funding sources.
Therefore, the grantee was unable to compare Federal budgeted costs to
actual Federal expenditures.

Recommendation:

The grantee maintains fin ancial records that adequately identity the source and
application of Federal program funds.

Response: 

The Lake County Family YMCA concurs with the Office of Inspector General 

(OIG) finding, 

                                                                                                     Page 4 of4




The La
     Lake
        ke Co
           Cou unty Family YMCMCA A is committ
                                       committee d to im
                                                      impr
                                                         proving
                                                           oving th
                                                                 thee interna
                                                                      internall controls of
the fiscal department and will ensure the safeguard the ACF Federa  Federall funds in
orderr to serv
orde      servee the families of the EHS program.

The process has begun wi
                       with
                          th rega
                              regard
                                  rd to fonowing all 45 CFR req
                                                             equiremen
                                                                uirements
                                                                       ts
beginning with the change
                   changess list
                            liste
                                ed ab
                                   aboo ve .

A f isca
    iscall consultan
           consultantt is wor
                          worki
                              king
                                ng with th
                                        thee Dire
                                             Direct
                                                  ctor
                                                    or of Fi
                                                          Finance
                                                             nance an
                                                                    andd the E HS Executive
Director to establish and maintain a financial management system that
adequately ide dentifi
                  ntifies
                       es the sourc
                                ource
                                    e and a pplication of FedFede
                                                                e ral program funds, and
provides for comparison of outlays with budgeted costs for eac        eachh award.



The
Th e g rant
       rantee
            ee d id not en
                        ensur
                            suree that its payroll distribu
                                                   distributi
                                                            tion
                                                              on process provided an
after-the-fact certification of actual activity performed by salaried
emplo
em ployees
        yees fo
              forr the period from July 20020099 through Se
                                                          Septe
                                                              ptembe
                                                                 mberr 201 0. Th
                                                                              Thee
grantee claimed $668,606 in salaries and wages, but did not support the
claims with perperso
                   sonne
                      nnell ac
                            activity
                               tivity reports. The grantee did not ususe
                                                                       e monthly
after-the-fact distribution that appropriately allocates administrative
personnel salaries in accordance with Federal requirements.

Recommendation:

Develop payroll distribution poliCies, procedures and processes that reflect actual
work p e rform
         rformee d.

Response: 

The Lake County Family YMCA concurs with the Office of In
                                                       Inspe
                                                          spector
                                                             ctor General 

(OIG) find ing . 


The Lake County Family YMCA wil! develop and implement policies     policies,, procedures,
                                                                               procedures , 

and pr
     proce
       ocess
           sses
             es for payroll distribution that ref
                                              reflect
                                                  lect ac tuall work p erformed a nd wi!! 

                                                       actua
include the following: 


       A. 	   Time based on documented payroHs approved by a responsible
              official of the organization, The distribution of sa      salari
                                                                          laries
                                                                               es and wages
              wiH be supported by personnpersonnei ei act
                                                      activit
                                                          ivity
                                                              y reports.
       B. 	   Reports will reflect the distribution of activity of each employee and
              wiH be main
                       maintata ine
                                inedd for     staff mem
                                                    membe  bers,
                                                              rs, T he repo
                                                                        eports
                                                                            rts w ill re
                                                                                      reflflect
                                                                                            ect an
              after-rna-fact determinationofthe actual activity of each employee      employee,,
              and
              an d account f or t he to total
                                          tal acti
                                              activi
                                                   vity
                                                     ty for w hich the em
                                                                        emplo
                                                                           ployee
                                                                               yees  s are
              compensat
              compe    nsated
                            ed..
       C. 	   The reports will be signed by the individu individuaa l employee or and
              responsible supervisory staff having first hand knowledge of the
              activities performed by the emp   employeloyee.
                                                            e.
                                                                                                                     Page 1 of3


APPENDIX B: ADMINISTRATION FOR CHILDREN AND FAMILIES COMMENTS


                                 Department of Health and Human Services
                                           Administration/or Children and Families 

                                                    Office a/Head Slart 

                                                          Region V 

                               Illinois • Indiana • Michigan • Minnesot.1 • Ohio • Wisconsin
               233 North Michigan Avenue, Suite 400                                     Telephone (3J2) 3534237
               Chicago, Illinois 60601-5519                                                    Fax (3 12) 353-2204



       Date: 	           June 7, 2012

       To: 	             Sheri Fulcher, Regional Inspector General for Audit Services
                         Office of Inspector General

       From: 	           Kay Willmoth, Regional Program Manager
                         Office of Head Start

                         Eric P. Staples, Regional Grants Management Officer
                         Office of Grants Management

       Subject: 	        CIN A-05-11-00055 Audit Response

       Grantee: 	        Lake County Family YMCA

       The Office of Inspector General (OIG), Office of Audit Services, provided the draft audit
       report for Lake County Family YMCA (Lake County), Common Identification Number
       (CIN) A-05-11-00055. to the Department of Health and Human Services (DHHS),
       Administration for Children and Families (ACF). Office of Head Start (OHS) for comments
       on May 10, 2012. The audit report covered the period August 1, 2009 through
       September 30, 2010 and examined expenditures under three separate grants awarded to
       Lake County during that period. specifically Grant Numbers 05CH8279, 05SE8279 and
       05SH8279. The three recommendations identified in the draft audit report are addressed
       below.

       Recommendation 1 :

       The draft audit report recommends OHS require Lake County to refund $975,431 to
       the Federal government for inadequately supported costs, or work with Lake
       County to resolve the lack of adequate records that identify the source and
       application of $975,431 in claimed Federal program funds.

       OHS and the Office of Grants Management (OGM) do not concur with the
       recommendation for Lake County to refund $975,431 to the Federal government.
       However, we concur with the recommendation to work with Lake County to resolve the
       lack of adequate records that identify the source and application of $915,431 in Federal
       funds. While we fully agree on the importance of Lake County's compliance with the
       applicable financial regulations, disallowance of the total grant is too severe a remedy and
       does not consider the benefits the program afforded the community. Lake County
       currently receives $945,185 in Federal Head Start funds to provide services to 126
       infants, toddlers and pregnant women and operates at one of the lowest cost per child
                                                                                               Page 2 of3



Ms. Fulcher                                                                  Page 2


averages nationally. Lake County's average cost per child is $7,501, which is 67 percent
of the national cost per child average of $11,190. Thus, the grantee is dependent on
other sources of funding such as State child care subsidy assistance to support the full
cost of programming. The issue identified in the audit is associated more with the proper
allocation and documentation of costs among the funding sources used to support EHS
services as opposed to claiming unallowable activities.

Further, we have reason9ble assurance that EHS services required by the grant were
perfonned and low income children and families of Lake County benefited from the
program. Program records and documents confirm that Lake County maintained full
funded enrollment throughout the audit period. The annual Program Information Report
(PIR) confirmed key services such as medical screenings and treatment, mental health
consultation and referral of children with suspected disabilities to the early intervention
agency were provided for children, and 44 pregnant women received a variety of
se.rvices. The grantee maintained appropriate staffing ratios and sufficient management
oversight during the period. Thus, expected services under the Head Start Act and
Perfonnance Standards were delivered to children and families.

Also, OHS proviped extensive training and technical assistance to Lake County to ensure
the grantee adequately documents its financial records. The initial technical assistance
consultation occurred the month prior to the OIG's on site review, and was followed by
multiple days of consultation between April and October 2011. The conSl,Jltant reports
indicate the findings identified in OIG's draft report were the areas of focus by the fiscal
consultants. The consultant reports indicate plans were developed to improve financial
procedures. Subsequentto the training and technical assistance provided by OHS, Lake
County contracted with a fiscal consultant for assistance in refining the fiscal procedures
and ensuring appropriate ongoing implementation. Thus, steps were implemented by
Lake County to improve the adequacy of its financial records.

Recommendation 2:

The draft audit report recommends OHS impose special award conditions on Lake
County so that it takes corrective actions to ensure that financial records
adequately identify the source and application of Federal program funds.

On April 20, 2012, the OHS received notification of Lake County's decision to relinquish
the EHS grant effective July 31, 2012. Thus, no further grant awards will be issued to
Lake County. The recommendation for the OHS and OGM to impose special award
conditions is now moot. However. the OHS and OGM continue to work with Lake County
to ensure financial records adequately identny the source and application of J=ederal
program funds. As noted in the preceding discussion, extensive fiscal training and
technical assistance was provided to Lake County. Recent SF-425 Federal Financial
Reports reflect improvements in the agency's understanding and documentation of fiscal
requirements. Changes in the cash management procedures require the drawdown of
funds in conjunction with the accounts payable and payroll schedules based on
anticipated outlays. Lake County also implemented the use of new grants management
                                                                                               Page 3 of3



Ms. Fulcher 	                                                                Page 3


software to guarantee sufficient financial documentation and reporting. Further, the
agency improved its accounting procedures manual to include the review and approval of
all asset and liability reconciliations and account balances. Thus, sufficient improvements
were made in the grantee's fiscal management practices.

Recommendation 3:

The draft audit report recommends OHS impose special award conditions on Lake
County so that it takes corrective actions to ensure that payroll distribution
policies, procedures, and processes reflect actual work performed.

Lake County provided notification it is relinquishing the EHS grant effective July 31, 2012,
Since no further grant awards will be issued to Lake County, OHSand OGM do not plan
to impose any special award conditions. However, OHS and OGM continue to work with
Lake County to ensure payroll distribution policies, procedures and processes reflect
actual work performed. Consultant reports confirmed Lake County developed a plan to
ensure policies and procedures for payroll distribution met the Federal requirements.

To confirm the agency fully implemented the changes in its financial management
systems and procedures, the OHS and OGM will instruct the grantee to direct its
independent auditor to review each of the audit findings and recommendations in OIG's
draft report as part of the A-133 single auditforthe period ending August 31,2012.

We are available to meet with you to discuss our positions with you and answer any
questions you may have. Thank you forthe opportunity to comment on the draft report.

cc: 	 Ann Linehan, Deputy Director
      Office of Head Start
